                                OFFICE OF INSPECTOR GENERAL
                               CORPORATION FOR NATIONAL AND
                                          COMMUNITY SERVICE




          AGREED-UPON PROCEDURES FOR
  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                GRANT AWARDED TO
        HEALTH FEDERATION OF PHILADELPHIA

                       OIG REPORT 10-10




                         Prepared by:

                 COTTON & COMPANY LLP
                 635 Slaters Lane, 4th Floor
                 Alexandria, Virginia 22314




This report was issued to Corporation management on June 2, 2010. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
December 2, 2010, and complete its corrective actions by June 1, 2011.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                          June 2, 2010


TO:            John S. Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 10-10, Agreed-Upon Procedures Review of Corporation for National
               and Community Service Grant Awarded to Health Federation of Philadelphia


Attached is the final report for the above-noted agreed-upon procedures review. We contracted
with the independent certified public accounting firm of Cotton & Company, LLP (Cotton) to
perform the procedures. The contract required Cotton to conduct its review in accordance with
generally accepted government auditing standards.

Cotton is responsible for the attached report, dated June 2, 2010, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Award and
Claimed Costs, or the Schedule of Award and Claimed Costs for each subgrantee, conclusions
on the effectiveness of internal controls, or the grantee’s compliance with laws, regulations, and
grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by December 2, 2010. Notice of final action is due by June 1, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Regina van
Houten, Audit Manager, at (202) 606-9356.

Attachment

cc:     Mary Jane Witucki, CFO, HFP
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
          Management, CNCS
        Bridgette Roy, Administrative Assistant, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Michael Gillespie, Operations Managing Partner, Cotton & Company, LLP




                1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
                                              Office of Inspector General
                                             Agreed-Upon Procedures For
                                    Corporation for National and Community Service
                                                   Grant Awarded To
                                           Health Federation of Philadelphia


                                                          CONTENTS


Section                                                                                                                       Page


Executive Summary .........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                      4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                  6

Schedule A: Chicago Health Corps ................................................................................              7

Exhibit B: Compliance Results ........................................................................................         8

Appendices

A: Health Federation of Philadelphia’s Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures to
assist the OIG in grant cost and compliance testing of Corporation-funded Federal assistance
provided to the Health Federation of Philadelphia (HFP).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of
$4,239 and education awards of $175. A questioned cost is an alleged violation of a provision
of law, regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds or a finding that, at the time of testing, includes costs not
supported by adequate documentation. Detailed results of our agreed-upon procedures on
claimed costs are presented in Exhibit A and the supporting schedules.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by Corporation grants and thus
are not included in claimed costs. However, as part of our agreed-upon procedures, and using
the same criteria used for the grantees’ claimed costs, we determined the effect of our findings
on eligibility for education awards and accrued interest awards.

Grant compliance testing results are summarized below. These results, along with applicable
recommendations, are discussed in Exhibit B.

1.     Financial management systems for both HFP and a subgrantee did not
       adequately account for and report grant costs in accordance with Federal
       requirements.

2.     One subgrantee claimed unallowable and unsupported costs.

3.     Some member contracts did not meet AmeriCorps requirements.

4.     Subgrantees could not document that all members received evaluations, and
       certain evaluations did not meet AmeriCorps requirements.

5.     One subgrantee had weaknesses in member timekeeping procedures.

6.     One subgrantee did not complete all member enrollment and exit forms and
       enter them into the Corporation’s Web-Based Reporting System (WBRS) in
       accordance with AmeriCorps requirements, and two member files were missing
       exit forms.

7.     One subgrantee did not provide a complete position description for a member
       and the description did not include the activities noted on the member’s activity
       logs.

8.     HFP did not ensure that a subgrantee complied with AmeriCorps requirements
       for living allowance payments.


                                              1
9.        HFP did not submit a Financial Status Report (FSR) in a timely manner.

10.       HFP did not provide documentation to support the review of subgrantee Office of
          Management and Budget (OMB) Circular A-133 audit reports.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Awards to Grantees (including subgrantees), dated May 2009.
Our procedures covered testing of the following grant:

     Award             Award No.          Award Period           AUP Period         Total Award
National Direct       07NDHPA003        09/01/07-08/31/10     09/01/07-03/31/09      $1,707,020

OIG’s agreed-upon procedures program included:

         Obtaining an understanding of HFP and its subgrantee monitoring process.

         Reconciling HFP’s claimed grant costs and match costs and a sample of
          subgrantees to their accounting systems.

         Testing subgrantee member files to verify that records support eligibility to serve,
          allowability of living allowances, and education awards.

         Testing HFP’s compliance and a sample of subgrantees on selected AmeriCorps
          Provisions, and award terms and conditions.

         Testing HFP’s claimed grant costs and match costs and a sample of subgrantees to
          ensure:

             AmeriCorps grants were properly recorded;

             Costs were properly matched; and

             Costs were allowable and supported in accordance with applicable OMB
              circulars, grant provisions, award terms and conditions.

We performed testing of the National Health Corps (NHC) program at HFP and two of its four
subgrantee sites from October 2009 through December 2009.

BACKGROUND

The Corporation

The Corporation funds and supports a range of national and community service programs
that provide an opportunity for individuals (members) to serve full- or part-time. It also
provides educational opportunities for those who have made a substantial commitment to
service. The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). The AmeriCorps Program,
the largest of the initiatives, is funded in two ways: grants through State Commissions and
direct funding to National Direct grantees, including HFP, which support and oversee

                                                 2
subgrantees. The subgrantees in turn recruit and select volunteers, who earn a living
allowance and/or education awards.

Health Federation of Philadelphia

HFP is a not-for-profit organization engaged in planning, research, advocacy, administration,
and program development of primary health care for low-income Philadelphians.

HFP is an AmeriCorps National Direct grantee under the NHC program, which was created in
1994 to increase access to health-care services for underserved communities, promote the
health and safety of each NHC community, and foster member pursuit of health-related careers.
AmeriCorps members serve at community-based health-related organizations and provide
services such as health education, community outreach, and other support services aimed at
increasing access to health services and information.

HFP provides programmatic and fiscal oversight, technical assistance, and support for the
following NHC subgrantees:

      Philadelphia Health Corps
      Duval County Health Department c/o North Florida Health Corps (NFHC)
      The Board of Trustees of the University of Illinois c/o Chicago Health Corps (CHC)
      Allegheny County Health Department c/o Pittsburgh Health Corps

Subgrantees enroll and monitor NHC program members and are responsible for accounting
for cost associated with their program. A full-time member receives an $11,400 living
allowance for an 11-month term and a $4,725 education award for completing at least 1,700
service hours. Subgrantees are required to provide eligible members with health care,
dental care, childcare, and transportation costs to service sites.

EXIT CONFERENCE

The contents of this report were discussed with HFP and Corporation representatives on
February 26, 2010. HFP and the Corporation provided written responses to the draft report.
We summarized their responses in appropriate sections of this report and included full
comments from HFP in Appendix A and from the Corporation in Appendix B.




                                             3
June 2, 2010


Office of Inspector General
Corporation for National and Community Service

                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures Program for Corporation Awards to Grantees (including subgrantees), dated
May 2009. These procedures were agreed to by the OIG solely to assist it in grant cost and
compliance testing of Corporation-funded Federal assistance provided to HFP for the award
detailed below.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants (AICPA) and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures, either for the purpose for which this report has been
requested or any other purpose.

Our procedures covered testing of the following award:

     Award           Award No.           Award Period         AUP Period       Total Award
National Direct     07NDHPA003         09/01/07-08/31/10   09/01/07-03/31/09    $1,707,020

We performed testing of this NHC program award at HFP and two of its subgrantee sites.
We tested selected labor, benefits, other direct costs at HFC and the two subgrantees
through March 31, 2009. We also tested certain grant compliance requirements by
sampling the files of 14 of 142 subgrantee members, as shown below. We performed all
applicable testing procedures in the AUP Program for each sampled member file.

                                                   Member Files Sampled
                  Site                          PY 2007-2008   PY 2008-2009
                  Chicago Health Corps                4               3
                  North Florida Health Corps          4               3
                  Total                               8               6




                                               4
RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $4,239. A questioned cost is an alleged
violation of provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned education awards of $175. Grant participants who successfully complete
terms of service under AmeriCorps grants are eligible for education awards and repayment
of student loan interest accrued during the term of service from the National Service Trust.
These award amounts are not funded by Corporation grants and thus are not included in
claimed costs. As part of our agreed-upon procedures and using the same criteria as
claimed costs, we determined the effect of our findings on education and accrued interest
award eligibility.

Detailed results of our agreed-upon procedures on claimed costs are in Exhibit A and the
supporting schedules. Results of testing grant compliance are in Exhibit B. We were not
engaged to, and did not perform an examination, the objective of which would be expression
of an opinion on the subject matter. Accordingly, we do not express such an opinion. Had
we performed other procedures, other matters might have come to our attention that would
have been reported.

This report is intended solely for the information and use of the OIG, the Corporation, HFP,
and the U.S. Congress, and is not intended to be and should not be used by anyone other
than these specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                              5
                                                                                         EXHIBIT A


                          HEALTH FEDERATION OF PHILADELPHIA
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                                           Education
                                               Federal Costs                Awards
Award No. 07NDHPA003                Awarded      Claimed Questioned        Questioned     Reference
Health Federation of Philadelphia   $209,020    $164,348      $212*
Chicago Health Corps                 395,900     299,638      4,027            $175      Schedule A
North Florida Health Corps           363,801     235,337          0               0
Total                               $968,721    $699,323     $4,239            $175


             * We questioned $212 (5.26% of $4,027) of administrative costs associated with
                               questioned Federal costs in Schedule A.




                                                 6
                                                                                    SCHEDULE A


                          HEALTH FEDERATION OF PHILADELPHIA
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                              CHICAGO HEALTH CORPS

                                        PY 2007-2008      PY 2008-2009      Notes
Claimed Federal Costs                    $184,074           $115,564
Questioned Federal Costs:
   Unsupported Federal Costs                 $4,027                           1
Questioned Education Awards:
   Timesheet/WBRS Hours Discrepancy            $175                           2

1.    CHC did not provide adequate supporting documentation, such as effort reports,
      invoices, and receipts, to support $2,452 of claimed personnel costs and $1,575 of
      claimed other program costs (prepaid bus transfer cards). We also questioned $212
      of administrative costs that were associated with unsupported costs (see
      Compliance Finding 2, Exhibit B).

      CHC operates through the University of Illinois and is therefore required to follow
      OMB Circular A-21, Cost Principles for Educational Institutions. OMB Circular A-21,
      Attachment A, Paragraph 2.e., states that the accounting practices of individual
      colleges and universities must support the accumulation of costs as required by the
      principles, and must provide for adequate documentation to support costs charged to
      sponsored agreements.

2.    Timesheets did not support hours recorded in WBRS for three of four sampled
      members in PY 2007-2008 (see Compliance Finding 5, Exhibit B).

      AmeriCorps Special Provisions (2007), Section IV., C.2., AmeriCorps Member,
      requires that grantees keep time-and-attendance records for all AmeriCorps
      members to document their eligibility for in-service and post-service benefits. The
      Corporation uses time-and-attendance information in WBRS to track member status,
      which forms the basis for calculating education awards.

      Without procedures to verify member activities or timesheet accuracy, the potential
      exists that members may perform prohibited activities or may receive education
      awards to which they are not entitled. We questioned a prorated portion of the
      partial education award for one member who left for compelling personal
      circumstances. The member’s timesheets did not support WBRS hours used to
      calculate the member’s partial education award, as follows:

                      WBRS Hours:                              1,527.5
                      Timesheet Hours:                         1,464.5
                      Difference:                              63.0
                      Questioned Portion of Partial Award:*    $175

             * We calculated the questioned amount as follows: (1,527.5/1,700 hours
             x $4,725) – (1,464.5/1,700 hours x $4,725).



                                              7
                                                                                   EXHIBIT B


                           HEALTH FEDERATION OF PHILADELPHIA
                                 COMPLIANCE RESULTS

The results of our agreed-upon procedures identified the following compliance findings:

Finding 1.   Financial management systems for both HFP and CHC did not adequately
             account for and report grant costs in accordance with Federal
             requirements.

HFP prepared its FSRs using a spreadsheet summarizing reimbursement request forms for
costs incurred by subgrantees, instead of using actual cost data from its accounting system.
This method resulted in transposition and data entry errors, including reporting costs not
claimed by subgrantees and omitting costs claimed by subgrantees. During the course of
testing, HFP revised its FSRs for errors identified during the reconciliation process. HFP did
not have controls to ensure FSR accuracy.

According to 45 CFR § 2543.21, Standards for financial management systems, Subsection
(b), recipient financial management systems must provide for accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

CHC did not use its accounting system to prepare the monthly PER’s submitted to HFP. It
calculated labor costs based on budgeted employee salaries, instead of effort reports. It
reported other program costs based on the monthly receipts of program expenses. CHC
calculated member costs (living allowances and benefits) and program manager’s labor
costs based on payroll reports provided by the payroll vendor.

In addition, CHC’s accounting system did not have unique account code(s) for claimed
match costs. CHC selected claimed costs from various funding sources. Failure to properly
account for match costs could result in unallowable costs claimed or costs claimed on
multiple awards.

OMB Circular A-21, Attachment A, Paragraph 2.e., states that the accounting practices of
individual colleges and universities must support the accumulation of costs as required by
the principles, and must provide for adequate documentation to support costs charged to
sponsored agreements.

Recommendations:

We recommend that the Corporation:

       1a.     Ensure that HFP establishes controls over the complete accurate, and timely
               financial reporting on the FFR.

       1b.     Ensure that HFP requires the subgrantee to use its accounting system as the
               basis for reported expenditures and establish unique accounting codes for
               match costs.



                                              8
HFP’s Response:

HFP will reconcile all reports of grant costs to its accounting records. In addition, HFP has
worked with CHC to ensure that a unique account code be maintained and that all costs that
are reported as match costs be supported by that code in the CHC accounting system.

Corporation’s Response:

The Corporation agrees with the finding and recommendations and will ensure HFP
establishes controls to prepare its FFR based on data from its accounting system and
controlled by its general ledger. The Corporation will verify HFP accounting practices are
enhanced for more accurate and timely financial reporting and written policies and
procedures are implemented as part of its financial management system. HFP informed the
Corporation that it has worked closely with its subgrantee, Chicago Health Corps (CHC) to
revise its accounting system to include unique accounting codes for match costs for each
Federal grant. Furthermore, HFP stated that CHC used the audit finding to prompt system-
wide timekeeping changes to ensure salary costs are based on actual, not budgeted,
amounts and that PERs are based on actual cost data from its accounting system.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 2.     CHC claimed unallowable and unsupported costs.

The notes to Schedule A describe questioned costs of $4,239, which are summarized on
Exhibit A. A questioned cost is an alleged violation of provision of law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure
of funds or a finding that, at the time of testing, such cost is not supported by adequate
documentation.

In addition, CHC claimed unallowable and unsupported match costs as follows:

      CHC claimed $1,575 of Federal costs and $375 of match costs that were
       unsupported and unallowable for monthly bus transfer cards. Supporting
       documentation provided by CHC showed that it purchased more cards than required
       for members and staff.

      CHC employees did not complete timesheets or quarterly effort reports to support
       labor costs charged to the grant. We conducted alternative testing by interviewing
       employees to determine if costs were allowable and reasonable. Based on the
       additional review, CHC claimed unsupported personnel expenses of $2,452 of
       Federal costs ($1,881 salaries and $571 benefits) and $5,039 of match costs ($3,762
       salaries and $1,277 benefits), as follows;

            A portion of the program manager’s monthly labor costs was erroneously
             reported under Program Year 2006-2007 and 2007-2008.

            51 percent of the graphic designer’s benefits were reported as match, instead of
             the correct 25 percent.


                                               9
            The program manager’s salary changed mid-August from $1,200 to $1,800 bi-
             weekly. CHC, however, claimed $4,200, the $1,800 increase plus the $2,400
             prior monthly salary.

            100 percent of the administrative assistant’s labor costs were claimed to the
             AmeriCorps program with the after-the-fact effort summary supporting 60 percent
             effort spent on the program.

OMB Circular A-21, Attachment A, Paragraph 2.e., states that the accounting practices of
individual colleges and universities must support the accumulation of costs as required by
the principles, and must provide for adequate documentation to support costs charged to
sponsored agreements.

Match-cost exceptions identified above resulted in overstated match costs claimed. HFP
had substantial overages in match requirements on this grant, however, and these offset the
match exceptions identified. As a result, we did not question overstated match costs.

Recommendations:

We recommend that the Corporation:

       2a.      Recover disallowed costs and related administrative costs.

       2b.      Instruct HFP to strengthen its training and monitoring of subgrantees to
                ensure claimed costs are allowable, adequately documented, and allocable in
                accordance with applicable cost principles and regulations.

       2c.      Instruct HFP to strengthen its training and monitoring to ensure subgrantees
                maintain timekeeping records for all employees in accordance with the
                applicable costs principles.

HFP’s Response:

HFP concurs with this finding and is taking corrective action. All NHC operating sites are
now required to follow new policies regarding transit passes. Distribution of transit passes is
to be recorded in a numbered log and signed for and dated by members. Sites
may only invoice HFP for the number of passes accounted for by these logs.

HFP will monitor supporting documentation for subgrantee salary distribution. Subgrantees
will be required to submit time sheet documentation (consistent with OMB Circulars)
throughout the grant year in order to substantiate the salaries charges to the program. In
addition, HFP will require that subgrantees submit supporting documentation for all program
costs, including matching costs. This supporting documentation will be reviewed and costs
without sufficient documentation will be disallowed.

Corporation’s Response:

The auditors questioned $4,239 of Federal share costs attributed to unused bus passes,
unsupported staff salary and benefits at the subgrantee CHC as well as $212 of associated
administrative costs. The Corporation concurs with the finding and disallows the questioned

                                              10
costs. The Corporation will verify that HFP strengthens its subgrantee training on the OMB
Cost Principles and timekeeping requirements and monitors its subgrantees for compliance
more closely.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 3.   Some member contracts did not meet AmeriCorps and program
             requirements.

Member contracts used by CHC stipulated the minimum requirements to participate in the
program. Age and citizenship eligibility were identified as minimum requirements but the
minimum education requirements, i.e., high school diploma, GED or college degree, needed
for program eligibility were omitted from the contract.

The requirements to participate in the NHC program are listed in the NHC member
handbook. The requirements include:

      Must be at least 18 years of age by the time training begins;
      Must be a United States Citizen or National or have a permanent resident visa;
      Must have a high school diploma, an equivalency certificate, or agree to obtain one
       before using an education award.

AmeriCorps Special Provisions (2007), Section IV., D.2., Member Contracts, states that the
grantee must require members to sign contracts that include other requirements established
by program.

Additionally, we noted the following deficiencies with member contracts:

      One member contract did not include the position description; and
      One member contract was signed by the member but not dated.

AmeriCorps Special Provisions (2007), Section IV., D.2., states that the grantee must
require members to have signed contracts that include position descriptions. Further,
AmeriCorps Special Provisions (2007), Section IV., C.1.b., Member Enrollment Procedures,
stipulates that AmeriCorps Programs are required to sign a member contract with an
individual, or otherwise enter a legally enforceable commitment as defined by state law,
before enrolling a member.

Failure to utilize complete and accurate member contracts could result in the enrollment of
ineligible members or members that are unaware of their duties, rights and responsibilities
or that participate in unallowable activities.

Recommendation:

We recommend that:

       3.     The Corporation require HFP to ensure that member contracts used by
              subgrantees include all necessary stipulations.


                                             11
HFP’s Response:

HFP concurs with this finding. NHC member contracts will be revised to include the
stipulation that members must have a high school diploma, GED or college degree in order
to be eligible for the program. The NHC will continue to require sub-grantee sites to include
position descriptions with member contracts and will increase monitoring of this requirement.

Corporation’s Response:

The audit finding stated that member contracts/agreements at the subgrantee CHC did not
stipulate minimum education requirements needed for program eligibility; one member
contract did not include the position description; and one contract was signed, but not dated.
The Corporation does not agree with the component of the finding related to educational
attainment. The grant provisions do not require the member agreement to include eligibility
requirements. Individuals specify their education attainment on the application form and
programs generally confirm individuals are eligible to become members before they enroll
them and sign the member agreement. However, the grant provisions require the position
description to be included as part of the member agreement and it must be signed by the
member. The Corporation will ensure that HFP trains and monitors subgrantees to comply
with the grant provision requirements for the elements in the member contracts/agreements.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations. We revised
Finding 3 to address the Corporation’s comment regarding the education requirement being
included in the member contract.

Finding 4.   Subgrantees could not document that all members received evaluations,
             and certain evaluations did not meet AmeriCorps requirements.

We tested seven CHC member files. CHC did not provide documentation showing that two
mid-term and four final evaluations were conducted.

In addition, none of final evaluations tested at CHC and NFHC (seven tested at each)
indicated if the member had completed the required number of service hours to be eligible
for an education award.

AmeriCorps Special Provisions (2007), Section IV., D.6., Performance Reviews, states that
grantees must conduct and keep records of at least a mid- and end-of-term written
evaluation of each member’s performance for full- and half-time members and an end-of-
term written evaluation for less than half-time members to document that the member has:

      Completed the required number of hours;
      satisfactorily completed assignments; and
      met other performance criteria communicated at the beginning of the service term.

Also, we identified unsigned evaluations by members for both subgrantees, as follows:




                                              12
                        Program      Mid-Term         Final
                        CHC              1              1
                        NFHC             0              1
                        Total            1              2


Evaluations are necessary to ensure that members are eligible for additional service terms,
and that grant objectives have been met. Without evaluations, members are not eligible to
serve additional terms of service.

Recommendation:

We recommend that the Corporation:

       4.     Require HFP to strengthen its subgrantee training and program monitoring
              procedures to ensure that subgrantees conduct and document member
              evaluations that meet AmeriCorps requirements.

HFP’s Response:

HFP concurs with this finding and has taken corrective action. Sub-grantee operating sites
were required to submit revised end-of-term evaluations to the NHC Parent Organization in
February, 2010. Those evaluations were reviewed and revised by HFP staff to ensure
compliance with AmeriCorps regulations. Additionally, HFP will expand its monitoring of
sub-grantees to include an end-of-year review of member files to ensure that end-of-term
member evaluations are completed for all NHC members.

Corporation’s Response:

Audit testing of member files at subgrantees CHC and North Florida Health Corps (NFHC)
disclosed two midterm and four final evaluations were not documented and one midterm
and two final evaluations were unsigned. Additionally, none of the final evaluations tested
included a statement that the member had met required hours to earn the award. The
Corporation agrees and will ensure HFP implements the action described in its response to
the draft audit. HFP plans to revise its end-of-term evaluation form, enhance its guidance to
subgrantees on evaluation requirements and expand its monitoring procedures to ensure
compliance with AmeriCorps evaluation requirements. The Corporation will ensure HFP
corrective action addresses both mid-term and end-of-term evaluations and will verify
subgrantees are trained on the revisions and the process is properly implemented.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 5.   CHC had weaknesses in member timekeeping procedures.

CHC did not always accurately report timesheet hours in WBRS. We tested timesheets for
seven members at CHC who had earned or were expected to earn education awards.
Service hours recorded by CHC in WBRS were not supported by member timesheets. Of
seven member files tested at CHC, we identified three files with discrepancies in hours
reported and questioned one education award.

                                             13
During testing, we noted weaknesses in CHC’s timekeeping procedures, as follows:

      Two timesheets were signed before hours were served; and
      One instance of multiple timesheets for the same period with different hours.

As discussed in Schedule A, Note 2, we questioned $175 as a result of weaknesses in
CHC’s member timekeeping procedures.

Recommendations:

We recommend that the Corporation:

       5a.    Require HFP to strengthen its training and monitoring to ensure that
              subgrantees maintain proper member timesheets.

       5b.    Disallow and, if already used, recover education awards made to members
              who did not serve minimum required service hours.

HFP’s Response:

5a. HFP concurs with this finding. HFP has changed its procedures for exiting members
with compelling personal circumstances to include a review by HFP staff of member
timesheets to verify the member's cumulative hour total. Additionally, HFP will expand its
monitoring of subgrantees to include an end-of-year review of member files (in addition to
the mid-year review) to ensure that member timesheets are correct and consistent with
information in eGrants.

5b. On April 5, 2010 HFP staff emailed a Trust Officer at the National Trust to determine if
the member in question had used their education award. The Trust Officer determined that
the member has not used the education award. At the request of HFP staff, the Trust
Officer corrected the member's hours total in eGrants from 1527.5 to 1464.5 hours, thereby
eliminating the discrepancy between the member's documented hours and their exited hours
in eGrants.

Corporation’s Response:

The auditors found discrepancies between hours reported by CHC in WBRS and on
timesheets. Also, one member’s education award in the amount of $175 was questioned
because when the member was exited for compelling and personal circumstances, hours
reported to the National Service Trust (Trust) were overstated by 63 service hours. The
auditors also noted two timesheets were signed prior to hours served and one instance of
multiple timesheets for a single pay period with different hours. The Corporation concurs
with the findings and recommendations and will review HFP revisions to the procedures for
exiting members and monitoring member files to ensure timesheets are correct and totals
are accurately reported to the eGrants/AmeriCorps Portal. In addition, the Corporation will
ensure HFP has formally documented its policies and procedures and implemented controls
to address the proper and accurate timekeeping and exits as well as requiring proper
documentation. In regards to the questioned education award, the Corporation has verified
that the award has not been accessed and that Trust records have been revised to reflect
the amount of award earned accurately.


                                             14
Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 6.   CHC did not complete all member enrollment and exit forms, enter them
             into the Corporation’s WBRS in accordance with AmeriCorps
             requirements, and two member files were missing exit forms.

We tested enrollment and exit forms for 14 of 142 CHC and NFHC members. CHC did not
enter all member enrollment, change of status, and exit forms into WBRS within the required
30-day timeframe. Of seven member files tested, CHC entered one enrollment form and
two exit forms late. We also identified two exit forms that were missing.

AmeriCorps Special Provisions (2007), Section IV., E.2., Notice to the Corporation’s
National Service Trust, requires that grantees notify the Corporation within 30 days of a
member’s enrollment, change of status, and/or completion of service.

AmeriCorps General Provisions (2007) Section V., E., Retention of Records, requires
grantees to retain all program records for 3 years from the date of submission of the final
FSR.

Without timely and accurate completion and submission of enrollment and exit forms, the
Corporation cannot maintain accurate member records.

Recommendation:

We recommend that the Corporation:

       6.      Require HFP to strengthen its subgrantee training and program monitoring
               procedures to ensure proper completion of member enrollment, change of
               status, and exit forms.

HFP’s Response:

HFP concurs with this finding. In addition to continuing its regular monitoring in eGrants
HFP will adopt stronger policies regarding sub-grantee non-compliance with AmeriCorps
regulations and NHC policies & procedures. HFP will seek CNCS guidance in order to
develop revised policies and procedures regarding member suspension and changes in
member status that will better support the program's compliance with this AmeriCorps
requirement.

Corporation’s Response:

The auditors found CHC did not enter all member enrollment, change of status, and exit
forms into WBRS within the required 30-day timeframe. Of seven member files tested, CHC
had two missing exit forms and entered one enrollment form and two exit forms late. The
Corporation agrees HFP must enhance controls and procedures to improve subgrantee
timeliness of member enrollment, exit and change of status forms and to maintain adequate
documentation. While we agree related forms must be maintained, we note that
AmeriCorps Regulations and grant provisions do not specify that the forms must be included
in the member files. Regardless, HFP must ensure its subgrantees are meeting deadlines

                                              15
for entering data in the AmeriCorps Portal and monitor to ensure forms are completed
properly and maintained. The Corporation will review HFP controls and ensure the
procedures are formally documented and implemented.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 7.   CHC did not provide a complete position description for a member and
             did not include activities noted on the member’s activity logs.

CHC was unable to provide a position description for one member and other members
noted activities on daily logs that were not included in their position descriptions. Failure to
develop complete and accurate member position descriptions could result in members
participating in unallowable activities.

AmeriCorps Provisions (2007), Section IV., D.1., Planning for the Term of Service, states
that the grantee must develop member position descriptions that provide for meaningful
service activities and performance criteria appropriate to the skill levels of members. In
planning for the member’s term of service, the grantee must account for holidays and other
time off, and must provide each member with sufficient opportunity to make up missed
hours.

Recommendation:

We recommend that the Corporation:

       7.      Require CHC to strengthen its subgrantee training and program monitoring
               procedures to ensure that member position descriptions include all necessary
               service activities.

HFP’s Response:

HFP concurs with this finding. CHC has been cited for this in the past. In addition to
continuing to monitor this, HFP will adopt stronger policies regarding consequences of
subgrantee non-compliance with AmeriCorps regulations and NHC policies & procedures.

Corporation’s Response:

The auditors found CHC did not have a position description for one member and noted that
activities on daily logs appeared inconsistent with the position descriptions. The Corporation
concurs with the finding, but we will work solely with HFP, our grantee, not CHC, the
subgrantee, to implement the recommendation. HFP will develop controls and procedures
to ensure subgrantees adhere to complete and accurate position descriptions that define
meaningful, allowable activities. The Corporation will review HFP subgrantee training and
ensure controls are strengthened to affect compliance and that procedures are formally
documented and implemented.




                                               16
Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 8.   HFP did not ensure that CHC complied with AmeriCorps requirements for
             member living allowance payments.

CHC did not distribute member living allowances in equal increments. CHC officials said
they were unaware that their living allowance distribution method was incorrect. Living
allowance payments were paid based on the number of days a member served within a pay
period. On several occasions, in both program years, living allowance payments were
prorated if the member started and ended their service term in the middle of a pay period.
In PY2007-2008, a member received $64 for serving one day of a pay period. In PY2008-
2009, a member received $148 for serving three days of a pay period. The members
received prorated living allowance payments based on when they started and ended their
service term or worked fewer days within a pay period during the term.

The Program Manager stated that the distribution of living allowances for each member was
not always in equal increments as it varied from the member’s start date and the next payroll
date.

AmeriCorps Special Provisions (2007), Section IV., I.1., Living Allowance Distribution, states
that programs should pay living allowances in regular increments, such as weekly or bi-
weekly, paying an increased increment only for increased living expenses, such as food,
housing, or transportation.

Recommendation:

We recommend that the Corporation:

       8.      Require HFP to strengthen its subgrantee monitoring to ensure compliance
               with AmeriCorps member living allowance requirements.

HFP’s Response:

HFP concurs with this finding. HFP will increase monitoring of member living allowance
stipends to ensure that stipends are paid in regular increments. HFP will update its policies
and procedures regarding member early exit and will train subgrantee staff on the proper
procedures for distributing member stipends, particularly when a member starts or leaves
the program in the middle of a pay period. HFP will also seek additional guidance from
CNCS on this issue.

Corporation’s Response:

The auditors found that CHC did not distribute member living allowances in equal
increments. CHC officials computed payments based on when they started and ended their
service term or worked fewer days within a pay period during the term. The Corporation
agrees with the recommendation and will ensure HFP implements an accounting policy and
procedure to address living allowance payments. The policy should describe proper living
allowance payment distribution and provide guidance for payment of the living allowance


                                              17
when a member starts or leaves a program during the middle of pay period or exits early.
The Corporation will ensure the policy is formally implemented and subgrantees are trained.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 9.   HFP did not submit a FSR in a timely manner.

HFP submitted one FSR 28 days late. Officials said they were unaware of the 30-day
submission requirement.

AmeriCorps Special Provisions (2007) Section IV., N.1.a., Financial Status Reports, states
that the grantee shall submit semi-annual cumulative FSRs summarizing expenditures
during the reporting period using eGrants. FSR deadlines are as follows:

                      Due Date            Reporting Period Covered
                      April 30            Start of grant through March 31
                      October 30          April 1-September 30

HFP stated that FSRs were due 60 days after the end of the quarter in prior years, and due
dates were changed, in 2008 to 30 days after the end of the reporting period. HFP was not
aware of the revised due dates for the FSRs.

When notified that the report was late, HFP followed up with the Corporation in an attempt to
request a time extension for filing the report so it could obtain necessary documentation
from subgrantees. The program officer stated that, because HFP had not requested an
extension before the actual due date, an extension could not be granted. The program
director's advice was to submit the report as soon as possible.

Recommendation:

We recommend that the Corporation:

       9.     Ensure that HFP submits all FSRs on time.

HFP’s Response:

HFP concurs with the finding. HFP staff were not aware that CNCS had changed the due
date for FSRs from November 30, 2008 to October 30th, 2008. HFP staff will review all
CNCS fiscal and program due dates at the beginning of each grant year and will submit all
FSRs in a timely manner.




                                             18
Corporation’s Response:

The auditors found that the FSR due October 30, 2008 was 28 days late. The Corporation
agrees that Federal Financial Reports must be submitted on time and will ensure HFP
implements a policy addressing timely submission of FFRs and uses a calendar of due
dates in training staff on timely reporting. Corporation staff verified that HFP’s reports have
been on time since then, or if needed, HFP has requested and received an extension by the
Corporation Grants Officer.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.

Finding 10. HFP did not provide documentation to support the review of subgrantee
            OMB Circular A-133 audit reports.

The audit firm conducting HFP’s 2007 A-133 audit noted that HFP did not review subgrantee
financial reports, an issue which was purportedly resolved in the 2008 A-133 audit report.
When asked to provide copies of subgrantee A-133 audit reports for 2007 and 2008 and
documentation to support review, HFP could not provide such documents. HFP’s finance
director was able to provide subgrantee 2008 A-133 audit reports after searching through
the financial manager’s files, but there was no documentation to support a financial manager
or director review.

OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations,
Subpart D., 400(d), Pass-through Entity Responsibilities, requires grantees to ensure that
subrgrantees undergo audits meeting requirements of the circular.

HFP did not have policies and procedures in place to ensure that subgrantee A-133 audit
reports were reviewed and documentation was maintained to support reviews. By not
reviewing Single Audit information, management is unable to determine if subgrantees are
in compliance with program guidelines.

Recommendation:

We recommend that the Corporation:

       10.     Ensure that HFP establishes policies and procedures to ensure review of
               subgrantee A-133 audit reports.

HFP’s Response:

HFP has reviewed the most recent audit reports of each of its subgrantees and included a
written response in each sites respective audit file. HFP will revise its fiscal policy and
procedures to include an annual review of subgrantee audit reports, documentation of the
review process and follow-up action with subgrantees when necessary.




                                              19
Corporation’s Response:

The Corporation agrees with the recommendation and will ensure HFP revises its fiscal
policy and procedures to include review of subgrantee A-133 Audits and that site visit fiscal
monitoring tools address the recommendation.

Accountants’ Comments:

HFP’s and the Corporation’s actions are responsive to the recommendations.




                                              20
               APPENDIX A

    HEALTH FEDERATION OF PHILADELPHIA’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
                The IIeaItII federation of Philadelphia

                            1211 Chestnut Street
                            Suite 801
                            Philadelphia, PA 19107

                            215.567.8001
                            Fax:215.567.7743
                            www.healthfederation.org



    April 12,2010

    Mr. Stuart Axenfeld
    Assistant Inspector General for Audit
    Corporation for National & Community Service
    Office of Inspector General
    1201 New York Ave, NW, Suite 830
    Washington, DC 20525

    Dear Mr. Axenfeld:

    Enclosed please find comments from the Health Federation of Philadelphia (HFP) to the Office
    of Inspector General regarding the agreed-upon procedures for grants awarded to HFP by the
    Corporation for National and Community Service.

        /

    s'~1ere~y,
     I     I
    i       /
/       I f ,          /'




/   k~ta'ie ~ O~iCh
    Executive Director
Exhibit A: HFP does not concur with the placement of $212 in questioned administrative costs
under HFP in Exhibit A. The $212 in administrative costs is based on $4,027 in questioned costs
generated by the Chicago Health Corps from Schedule A. Therefore, the $212 belongs on the
Chicago Health Corps line.

Finding 1: Financial management systems for both HFP and CHC did not adequately
account for and report grant costs in accordance with Federal requirements.

HFP Response: HFP will reconcile all reports of grant costs to its accounting records. In
addition, HFP has worked with CHC to ensure that a unique account code be maintained and that
all costs that are reported as match costs be supported by that code in the CHC accounting
system.

Finding 2: CHC claimed unallowable and unsupported costs.

HFP Response: HFP concurs with this finding and is taking corrective action. All NRC
operating sites are now required to follow new policies regarding transit passes. Distribution of
transit passes is to be recorded in a numbered log and signed for and dated by members. Sites
may only invoice HFP for the number of passes accounted for by these logs.

HFP will monitor supporting documentation for sub grantee salary distribution. Subgrantees will
be required to submit time sheet documentation (consistent with OMB Circulars) throughout the
grant year in order to substantiate the salaries charges to the program. In addition, HFP will
require that subgrantees submit supporting documentation for all program costs, including
matching costs. This supporting documentation will be reviewed and costs without sufficient
documentation will be disallowed.

Finding 3: Some member contracts did not meet AmeriCorps requirements.

HFP Response: HFP concurs with this finding. NHC member contracts will be revised to
include the stipulation that members must have a high school diploma, GED or college degree in
order to be eligible for the program. The NRC will continue to require sub-grantee sites to
include position descriptions with member contracts and will increase monitoring ofthis
requirement.

Finding 4. Subgrantees could not document that all members received evaluations, and
certain evaluations did not meet AmeriCorps requirements.

HFP concurs with this finding and has taken corrective action. Sub-grantee operating sites were
required to submit revised end-of-term evaluations to the NRC Parent Organization in February,
2010. Those evaluations were reviewed and revised by HFP staff to ensure compliance with
AmeriCorps regulations. Additionally, HFP will expand its monitoring of sub-grantees to
include an end-of-year review of member files to ensure that end-of-term member evaluations
are completed for all NRC members.
Finding 5. CHC had weaknesses in member timekeeping procedures.

Sa. HFP concurs with this finding. HFP has changed its procedures for exiting members with
compelling personal circumstances to include a review by HFP staff of member timesheets to
verify the member's cumulative hour total. Additionally, HFP will expand its monitoring of sub-
grantees to include an end-of-year review of member files (in addition to the mid-year review) to
ensure that member timesheets are correct and consistent with information in eGrants.

5b. On AprilS, 2010 HFP staff emailed                       Trust Officer at the National Trust
to determine if the member in question had used their education award.
determined that the member has not used the education award. At the request ofHFP staff,
          corrected the member's hours total in eGrants from 1527.5 to 1464.5 hours, thereby
eliminating the discrepancy between the member's documented hours and their exited hours in
eGrants.

Finding 6. CHC did not complete all member enrollment and exit forms, enter them into
the Corporation's WBRS in accordance with AmeriCorps requirements, and two member
files were missing exit forms.

HFP concurs with this finding. In addition to continuing its regular monitoring in eGrants HFP
will adopt stronger policies regarding sub-grantee non-compliance with AmeriCorps regulations
and NHC policies & procedures. HFP will seek CNCS guidance in order to develop revised
policies and procedures regarding member suspension and changes in member status that will
better support the program's compliance with this AmeriCorps requirement.

Finding 7. CHC did not provide a complete position description for a member and did not
include activities noted on the member's activity logs.

HFP concurs with this finding. The NHC has cited CHC for this in the past. In addition to
continuing to monitor this HFP will adopt stronger policies regarding consequences of sub-
grantee non-compliance with AmeriCorps regulations and NHC policies & procedures.

Finding 8. HFP did not ensure that CHC complied with AmeriCorps requirements for
member living allowance payments.

HFP concurs with this finding. HFP will increase monitoring of member living allowance
stipends to ensure that stipends are paid in regular increments. HFP will update its policies and
procedures regarding member early exit and will train sub grantee staff on the proper procedures
for distributing member stipends, particularly when a member starts or leaves the program in the
middle of a pay period. HFP will also seek additional guidance from CNCS on this issue.

Finding 9. HFP did not submit a FSR in a timely manner.

HFP Response: HFP concurs with the finding. HFP staff were not aware that CNCS had
changed the due date for FSRs from November 30,2008 to October 30th , 2008. HFP staff will
review all CNCS fiscal and program due dates at the beginning of each grant year and will
submit all FSRs in a timely manner.

Finding 10. HFP did not provide documentation to support the review of sub grantee OMB
Circular A-133 audit reports.

HFP Response: HFP has reviewed the most recent audit reports of each of its sub grantees and
included a written response in each sites respective audit file. HFP will revise its fiscal policy
and procedures to include an annual review of sub grantee audit reports, documentation of the
review process and follow-up action with subgrantees when necessary.
               APPENDIX B

              CORPORATION’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
                                           NATIONAL&:
                                           COMMUNITY
                                          SERVICEt~ttJ:




To:               Stuart Axenfl d, Inspector Geneaffor Audit
                       /~                       I&:           (/
From:             M'    ~~'               IT"   or        t ' '.gemenl

Date:             April 21, 2~LO_/

Subject:          Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to the Health
                  Federation of Philadelphia


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to the Health Federation of Philadelphia (HFP).
The Corporation reviewed the OIG report, met with the OIG Audit Manager and the grantee and reviewed
the HFP draft response to the audit. Weare addressing all draft findings at this time. If the OIG concurs
with our decisions, the Corporation will complete confirmation of corrective action on the ten compliance
recommendations within 90 days after the audit issue date.

Finding 1: Financial management systems for both HFP and CHC did not adequately account for
and report grant costs in accordance with Federal requirements.

The auditors recommend that the Corporation:

1a.     Ensure that HFP establishes controls over the complete accurate, and timely financial reporting on
        theFFR.

lb.     Ensure that HFP requires the subgrantee to use its accounting system as the basis for reported
        expenditures and establish unique accounting codes for match costs.


      Corporation Response: The Corporation agrees with the fmding and recommendations and will
      ensure HFP establishes controls to prepare its FFR based on data from its accounting system and
      controlled by its general ledger. The Corporation will verify HFP accounting practices are enhanced
      for more accurate and timely financial reporting and written policies and procedures are implemented
      as part of its fmancial management system. HFP informed the Corporation that it has worked closely
      with its subgrantee, Chicago Health Corps (CHC) to revise its accounting system to include unique
      accounting codes for match costs for each Federal grant. Furthermore, HFP stated that CHC used the
      audit fmding to prompt system-wide timekeeping changes to ensure salary costs are based on actual,
      not budgeted, amounts and that PERs are based on actual cost data from its accounting system.




                                1201 New York Avenue, NW     *
                                                            Washington, DC 20525
                                      202-606-5000    *
                                                      www.nationalservice.org                        US
                                                                                                     Freedom Corps
                                Senior Corps   * AmeriCorps * Learn and Serve America                    The President's Call to Service
Finding 2: CRC claimed unallowable and unsupported costs.

The auditor recommends that the Corporation:

2a.     Recover disallowed costs and related administrative costs.

2b.     Instruct HFP to strengthen its training and monitoring of subgrantees to ensure claimed costs are
        allowable, adequately documented, and allocable in accordance with applicable cost principles and
        regulations.

2c.     Instruct HFP to strengthen its training and monitoring to ensure subgrantees maintain timekeeping
        records for all employees in accordance with the applicable costs principles.

      Corporation Response: The auditors questioned $4,239 of Federal share costs attributed to unused
      bus passes, unsupported staff salary and benefits at the sub grantee CHC as well as $212 of associated
      administrative costs. The Corporation concurs with the fmding and disallows the questioned costs.
      The Corporation will verify that HFP strengthens its sub grantee training on the OMB Cost Principles
      and timekeeping requirements and monitors its sub grantees for compliance more closely.

Finding 3: Some member contracts did not meet AmeriCorps requirements.

The auditors recommend that the Corporation require HFP to ensure that member contracts used by
sub grantees include all necessary stipulations.

      Corporation Response: The audit finding stated that member contracts/agreements at the sub grantee
      CHC did not stipulate minimum education requirements needed for program eligibility; one member
      contract did not include the position description; and one contract was signed, but not dated. The
      Corporation does not agree with the component of the finding related to educational attainment. The
      grant provisions do not require the member agreement to include eligibility requirements. Individuals
      specify their education attainment on the application form and programs generally confirm
      individuals are eligible to become members before they enroll them and sign the member agreement.
      However, the grant provisions require the position description to be included as part of the member
      agreement and it must be signed by the member. The Corporation will ensure that HFP trains and
      monitors subgrantees to comply with the grant provision requirements for the elements in the member
      contracts/agreements.

Finding 4: Subgrantees could not document that all members received evaluations, and certain
evaluations did not meet AmeriCorps requirements.

The auditors recommend that the Corporation require HFP to strengthen its sub grantee training and
program monitoring procedures to ensure that subgrantees conduct and document member evaluations
that meet AmeriCorps requirements.

      Corporation Response: Audit testing of member files at sub grantees CHC and North Florida Health
      Corps (NFHC) disclosed two midterm and four final evaluations were not documented and one
      midterm and two final evaluations were unsigned. Additionally, none of the fmal evaluations tested
      included a statement that the member had met required hours to earn the award. The Corporation
      agrees and will ensure HFP implements the action described in its response to the draft audit. HFP



                                                  2
      evaluation requirements. The Corporation will ensure HFP corrective action addresses both mid-term
      and end-of-term evaluations and will verify subgrantees are trained on the revisions and the process is
      properly implemented.

Finding 5: CDC had weaknesses in member timekeeping procedures.

The auditors recommend that the Corporation:

5a.     Require HFP to strengthen its training and monitoring to ensure that subgrantees maintain proper
        member timesheets.

5b.     Disallow and, if already used, recover education awards made to members who did not serve
        minimum required service hours.

      Corporation Response: The auditors found discrepancies between hours reported by CHC in
      WBRS and on timesheets. Also, one member's education award in the amount of $175 was
      questioned because when the member was exited for compelling and personal circumstances, hours
      reported to the National Service Trust (Trust) were overstated by 63 service hours. The auditors also
      noted two timesheets were signed prior to hours served and one instance of multiple timesheets for a
      single pay period with different hours. The Corporation concurs with the fmdings and
      recommendations and will review HFP revisions to the procedures for exiting members and
      monitoring member files to ensure timesheets are correct and totals are accurately reported to the
      eGrantslAmeriCorps Portal. In addition, the Corporation will ensure HFP has formally documented
      its policies and procedures and implemented controls to address the proper and accurate timekeeping
      and exits as well as requiring proper documentation. In regards to the questioned education award,
      the Corporation has verified that the award has not been accessed and that Trust records have been
      revised to reflect the amount of award earned accurately.

Finding 6: CDC did not complete all member enrollment and exit forms, enter them into the
Corporation's WBRS in accordance with AmeriCorps requirements, and two member fIles were
missing exit forms.

The auditors recommend that the Corporation require HFP to strengthen its subgrantee training and
program monitoring procedures to ensure proper completion of member enrollment, change of status, and
exit forms.

Corporation Response: The auditors found CHC did not enter all member enrollment, change of status,
and exit forms into WBRS within the required 30-day timeframe. Of seven member files tested, CHC
had two missing exit forms and entered one enrollment form and two exit forms late. The Corporation
agrees HFP must enhance controls and procedures to improve sub grantee timeliness of member
enrollment, exit and change of status forms and to maintain adequate documentation. While ,we agree
related forms must be maintained, we note that AmeriCorps Regulations and grant provisions do not
specify that the forms must be included in the member files. Regardless, HFP must ensure its subgrantees
are meeting deadlines for entering data in the AmeriCorps Portal and monitor to ensure forms are
completed properly and maintained. The Corporation will review HFP controls and ensure the
procedures are formally documented and implemented.




                                                  3
Finding 7: CHC did not provide a complete position description for a member and did not include
activities noted on the member's activity logs.

The auditors recommend that the Corporation require CHC to strengthen its sub grantee training and
program monitoring procedures to ensure that member position descriptions include all necessary service
activities.

   Corporation Response: The auditors found CHC did not have a position description for one
   member and noted that activities on daily logs appeared inconsistent with the position descriptions.
   The Corporation concurs with the finding, but we will work with HFP, our grantee, not CHC, the
   subgrantee, to implement the recommendation. HFP will develop controls and procedures to ensure
   sub grantees adhere to complete and accurate position descriptions that define meaningful, allowable
   activities. The Corporation will review HFP sub grantee training and ensure controls are strengthened
   to affect compliance and that procedures are formally documented and implemented.

Finding 8: HFP did not ensure that CHC complied with AmeriCorps requirements for member
living allowance payments.

The auditors recommend that the Corporation require HFP to strengthen its sub grantee monitoring to
ensure compliance with AmeriCorps member living allowance requirements.

   Corporation Response: The auditors found that CHC did not distribute member living allowances
   in equal increments. CHC officials computed payments based on when they started and ended their
   service term or worked fewer days within a pay period during the term. The Corporation agrees with
   the recommendation and will ensure HFP implements an accounting policy and procedure to address
   living allowance payments. The policy should describe proper living allowance payment distribution
   and provide guidance for payment of the living allowance when a member starts or leaves a program
   during the middle of pay period or exits early. The Corporation will ensure the policy is formally
   implemented and sub grantees are trained.

Finding 9: HFP did not submit an FSR in a timely manner.

The auditors recommend that the Corporation ensure that HFP submits all FSRs on time.

   Corporation Response: The auditors found that the FSR due October 30, 2008 was 28 days late.
   The Corporation agrees that Federal Financial Reports must be submitted on time and will ensure
   HFP implements a policy addressing timely submission ofFFRs and uses a calendar of due dates in
   training staff on timely reporting. Corporation staff verified that HFP's reports have been on time
   since then, or if needed, HFP has requested and received an extension by the Corporation Grants
   Officer.




                                               4
Finding 10: HFP did not provide documentation to support the review of subgrantee OMB
Circular A-133 audit reports.

The auditors recommend that the Corporation ensure that HFP establishes policies and procedures to
ensure review of sub grantee A-133 audit reports.

   Corporation Response: The Corporation agrees with the recommendation and will ensure HFP
   revises its fiscal policy and procedures to include review of sub grantee A-133 Audits and that site
   visit fiscal monitoring tools address the recommendation.

                          * * * * * * * * * * * * * * *
Summary: The Corporation is disallowing all $4,239 of the Federal questioned costs and the $175 in
improperly certified education award funds. We will ensure HFP completes corrective action on the
recommendations as described in our responses.




                                                5
